No. ______________

In the
Supreme Court of the United States
___________
Ryan Jason Brannon,
Petitioner,
v.
State of Texas,
Respondent.
___________
On Petition for a Writ of Certiorari
from the 7th Court of Appeals of Texas
___________
MOTION TO PROCEED IN FORMA PAUPERIS
___________

Page 1 of 2

COMES NOW, Ryan Jason Brannon, Petitioner in the above styled and
numbered cause, by and through his court-appointed attorney Bethany S. Stephens,
and files this Motion respectfully requesting that this Honorable Court grant him
leave to proceed in forma pauperis.
After his conviction, the trial court found him to be indigent and appointed
Bethany S. Stephens for all appellate purposes pursuant to Section 26.04 of the
Texas Code of Criminal Procedure which states in relevant part:
(c) Whenever a court or the courts' designee authorized under
Subsection (b) to appoint counsel for indigent defendants in the
county determines for purposes of a criminal proceeding that a
defendant charged with or appealing a conviction of a felony or a
misdemeanor punishable by confinement is indigent or that the
interests of justice require representation of a defendant in the
proceeding, the court or the courts' designee shall appoint one or more
practicing attorneys to represent the defendant in accordance with
this subsection and the procedures adopted under Subsection (a).
A copy of the trial court’s order appointing Bethany S. Stephens is attached
hereto.
WHEREFORE, PREMISES CONSIDERED, Petitioner prays that the Court
allow him to proceed in forma pauperis.
Respectfully submitted,
Bethany S. Stephens
Attorney at Law

P.O. Box 75
Childress, TX 79201
Telephone: (940) 937-4050
E-mail: bstephenslaw@gmail.com
Attorney for Petitioner
Page 2 of 2

